OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/PAKISTAN’S
EARTHQUAKE
RECONSTRUCTION ACTIVITIES
AUDIT REPORT NO. 5-391-09-001-P 

NOVEMBER 25, 2008 





MANILA, PHILIPPINES

Office of Inspector General


November 25, 2008

MEMORANDUM

TO:       	         USAID/Pakistan Director, Anne H. Aarnes

FROM: 	             Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:	           Audit of USAID/Pakistan’s Earthquake Reconstruction Activities (Audit Report
                    No. 5-391-09-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments in appendix II.

This report contains four recommendations to assist USAID/Pakistan to improve its oversight of
its earthquake reconstruction activities. Based on the mission’s response to the draft report, we
consider that management decisions have been reached on all four recommendations.
Determination of final action will be made by the Audit Performance and Compliance Division
upon completion of the planned corrective action.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
President Diosdado Macapagal Blvd., 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


     Audit Objective ............................................................................................................ 3     


Audit Findings ................................................................................................................. 4 


Is USAID/Pakistan’s Reconstruction Activities achieving its 

intended results and what has been the impact? 


     Construction Activities Experiencing Delays ............................................................... 5 


     Livelihood Activities Experiencing Delay ..................................................................... 8 


     Contractor Performance Review Was Not 

     Completed................................................................................................................. 10 


     Performance Management Plans Were Not 

     Approved................................................................................................................... 11 


     Data Quality Assessment Needs to be 

     Completed................................................................................................................. 12 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – Table A-1: Program 

Achievements as of April 30, 2008 .............................................................................. 19 

SUMMARY OF RESULTS

On October 8, 2005, residents of northern Pakistan were shaken by a 7.6 magnitude
earthquake that would claim more than 74,000 lives, level 272,000 buildings (including
585 health care facilities and 15,000 educational buildings), and leave more than 3.5
million people homeless. The earthquake zone is located in a mountainous region that
includes parts of Pakistan’s Northwest Frontier Province and Azad Jammu and Kashmir
Province. The Islamic Republic of Pakistan (Pakistan) established the Earthquake
Reconstruction and Rehabilitation Authority to coordinate and oversee all reconstruction
activities.   To help Pakistan recover and to provide immediate access to
earthquake-affected areas, on January 21, 2006, the U.S. Government (acting through
USAID) and the Pakistan Government formalized U.S. Government support for
Pakistan’s earthquake reconstruction program with the signing of a $200 million special
objective grant agreement (see page 2).

The Regional Inspector General/Manila conducted the audit of USAID/Pakistan
earthquake reconstruction activities to determine if they are achieving intended results,
and what the impact has been.            This audit focused on two activities under
USAID/Pakistan’s earthquake reconstruction program: (1) the construction of schools
and health clinics implemented by Camp Dresser and Mckee International Inc., and (2)
the livelihoods activities implemented by Citizens Network for Foreign Affairs (see
page 3).

USAID/Pakistan earthquake reconstruction activities that involved construction and
livelihoods activities achieved most, but not all, of their intended results.
USAID/Pakistan measured its progress under these two activities against targets
established for 10 performance indicators. As of April 30, 2008, the mission had
achieved its planned targets for seven of the indicators, made progress on two
indicators, and did not make progress on one indicator because the mission suspended
work on a hospital construction project while awaiting a commitment from the Pakistan
Government to staff the facility upon completion. With regard to program impact, there
have been mixed results since the program began in January 2006. For example, the
livelihoods activities program has contributed to increasing rural incomes by 38.5
percent. However, the mission has not yet completed any of the school or health facility
construction activities; therefore, it is too soon to assess the impact of these facilities on
local communities (see page 4).

The audit identified five issues affecting the program: a delay in the construction of
schools and health clinics (see page 5), delays in the implementation of livelihoods
activities (see page 8), lack of a contractor performance review (see page 10), lack of
approved performance management plans (see page 11), and lack of a data quality
assessment to validate the accuracy of reported results (see page 12).

This report contains four recommendations to assist the mission in improving its
implementation and monitoring of earthquake reconstruction activities (see pages
10-12). Based on the mission’s written comments management decisions have been
reached on all four recommendations. USAID/Pakistan’s written comments are included
in their entirety as appendix II to this report (see page 16).




                                                                                            1
BACKGROUND
On October 8, 2005, residents of northern Pakistan were shaken by a 7.6 magnitude
earthquake that would claim more than 74,000 lives, level 272,000 buildings (including
585 health care facilities and 15,000 educational buildings), and leave some 3.5 million
people homeless. Other lifelines such as water supplies, power lines, and bridges were
also disrupted. The earthquake zone is located in a mountainous region that includes
parts of Pakistan’s Northwest Frontier Province and Azad Jammu and Kashmir Province.

The Islamic Republic of Pakistan (Pakistan) established the Earthquake Reconstruction
and Rehabilitation Authority to coordinate and oversee all reconstruction activities. To
help Pakistan recover and to provide immediate access to earthquake-affected areas, on
January 21, 2006, the U.S. Government (acting through USAID) and the Pakistan
Government formalized U.S. Government support for Pakistan’s earthquake
reconstruction program with the signing of a $200 million special objective grant
agreement. The objectives of the grant agreement are to strengthen health and
education systems and restore livelihoods opportunities in selected earthquake-affected
areas.

As of May 2008, USAID/Pakistan had committed $202 million to reconstruction activities,
and had obligated $80 million and disbursed $43 million since the program’s inception.
Table 1 summarizes the commitments, obligations, and disbursements by activity of the
mission’s earthquake reconstruction program as of May 2008.

Table 1. Commitments, Obligations, and Disbursements by Activity Through May
2008
                                                             Committed       Obligated      Disbursed
        Activity                 Description
                                                             ($ millions)   ($ millions)   ($ millions)
                   Construction and furnishing of
                   education and health care facilities by
Construction                                                         120              31              8
                   incorporating earthquake-resistant
                   building standards
                   Training approximately 10,000
                   elementary, middle, and high school
                   teachers in interactive, activity-based
Education                                                              13              6              4
                   learning and student-centered
                   methodologies linked to content areas
                   of math, science, and English
                   Integration, improvement, and
                   expansion of the network of health
Health                                                                 28             12              6
                   services for residents of the
                   earthquake-affected areas
                   Recovery and expansion of the
                   economy of the earthquake-affected
Livelihoods                                                            34             24             20
                   areas through activities aimed at
                   households, industries, and markets
                   Provision of mission support activities
Program Support                                                         7              7              5
                   such as transportation
Total                                                               $202            $80            $43




                                                                                                     2
This audit focused on two activities under USAID/Pakistan’s earthquake reconstruction
program: (1) the construction of schools and health clinics implemented by Camp
Dresser and Mckee International Inc. (CDM) and (2) the livelihoods activities
implemented by Citizens Network for Foreign Affairs (CNFA).

In October 2006, the mission awarded CDM a 5-year, $120 million contract to rebuild
and furnish seismic-resistant schools and health care facilities and to build institutional
capacity to help restore normalcy, economic recovery, and security in the
earthquake-affected areas. As of May 31, 2008, USAID/Pakistan had obligated $31
million and disbursed $8 million for the construction activities.

In July 2006, the mission awarded CNFA a 3-year, $28 million cooperative agreement to
facilitate the transition from relief and reconstruction to broad-based economic growth
and increased employment in the earthquake-affected regions through the establishment
of livelihoods programs. As of May 31, 2008, USAID/Pakistan had obligated $19 million
and disbursed $14 million for the livelihoods activities under the CNFA agreement.

AUDIT OBJECTIVE
The Regional Inspector General/Manila conducted this audit as part of its fiscal year
2007 annual audit plan to answer the following question:

     •	 Did USAID/Pakistan’s earthquake reconstruction activities achieve planned
        results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         3
AUDIT FINDINGS 

USAID/Pakistan earthquake reconstruction that involved construction and livelihoods
activities achieved most, but not all, of its intended results. USAID/Pakistan measured
its progress under these two activities against targets established for 10 performance
indicators. As of April 30, 2008, the mission had achieved its planned targets for seven
of the indicators, made progress on two indicators, and did not make progress on one
because the mission suspended work on a hospital construction project while awaiting a
commitment from the Pakistan Government to staff the facility upon completion. A
complete list of the 10 indicators for these two activities, along with actual results as of
April 30, 2008, is included in appendix III.

With regard to program impact, there have been mixed results since the program began
in January 2006. For example, the livelihoods activities have contributed to increasing
rural incomes by 38.5 percent. However, the mission has not yet completed any of the
school or health facility construction activities; therefore, it is too soon to assess the
impact of these facilities on local communities.

The audit did recognize a number of successes attributed to the mission’s reconstruction
activities. For example, under the livelihoods activities, the mission established a dairy
association to link milk producers in Bagh district to buyers. The dairy association
currently has 1,169 members, a majority of whom are female. This success contributed
directly to the indicator measuring the percentage change in rural income of a target
population, as well as the indicator of the number of rural households benefiting directly
from U.S. Government interventions. Furthermore, the work targeted at developing
agricultural and tourism value chains has resulted in support of 1,778 new and existing
enterprises that are employing more than 8,500 individuals.

As part of the construction implementation, the mission was successful in engaging local
communities to participate in the construction of schools and basic health units. The
mission’s goals for local community involvement were to promote a sense of ownership
in the buildings and to develop capacity so the community could ultimately share
responsibility for the maintenance of the buildings.

The community was asked at the start of each construction project to participate in the
construction process. In response, several communities provided free land for the
construction of temporary tent schools while the permanent structures were being
completed. Thereafter, the communities were responsible for maintaining the temporary
school sites. Community participation was also instrumental in resolving construction
issues. For example, in one instance the local community organization was able to
provide a subcontractor with additional land to store construction materials.




                                                                                          4
 Photograph of a temporary school site on land donated by the community in Bagh district. (Photo by

 Office of Inspector General, June 2008.)


Although the program experienced some success in a few activities, the audit identified
five issues, discussed below, that have impacted the program.

Construction Activities
Experiencing Delays

 Summary: According to Camp Dresser and Mckee International Inc.’s (CDM) year 1
 annual work plan, it was to have 33 buildings under design by October 2007 and 45
 buildings under construction by the end of December 2007. However, because of
 delays resulting from lack of mission staffing, lack of suitable sites for construction,
 building design challenges, unanticipated work, nonperformance of a construction
 subcontractor, and material price escalations, only 30 buildings were under design by
 October 2007 and only 9 buildings were under construction by the end of December
 2007. As a result, local communities do not have shelter available in the event of
 another disaster, and people who left their communities because of a lack of schools
 and health care facilities are being displaced longer than necessary.

According to CDM’s year 1 annual work plan, it was to have 33 buildings (schools and
health units) under design by October 2007 and 45 buildings under construction by the
end of December 2007. However, because of delays, only 30 buildings were under
design by October 2007 and only 9 buildings were under construction by the end of
December 2007.

Construction was delayed for a number of reasons, including (1) lack of mission staff, (2)
lack of suitable construction sites, (3) building design challenges, (4) unanticipated work,
(5) nonperformance of a construction subcontractor, and (6) material price escalations.

Staffing posed a problem for the mission at the onset of the program. First of all, the
mission had on staff one engineer and a city planner to monitor the construction
activities and approve construction documentation. According to the mission, CDM


                                                                                                       5
subcontracted the design for the schools and health units to three subcontractors.
These three subcontractors worked simultaneously preparing concept and final
construction designs so that CDM could prepare and submit the designs to the mission
for release of construction task orders to commence work. However, the one staff
engineer could not timely support the review requirements of simultaneous task order
submissions from CDM, which included final designs and engineering cost estimates.
The mission had only one contracting officer on staff with the authority to issue task
orders under the CDM prime contract. His responsibilities also covered all other
contracts within the mission. This excessive workload caused delays in approving and
issuing task orders. To resolve this issue, the Reconstruction Office is hiring three
additional engineers and the Contracting Office is hiring a dedicated contracting officer
to work on reconstruction activities.

The lack of suitable construction sites hampered construction progress. For example, at
the start of the program, the mission received a list of 27 proposed construction sites
from the Pakistan Government Earthquake Reconstruction Rehabilitation Authority
(ERRA). The mission then developed a set of criteria to determine if the proposed sites
were acceptable. CDM took an average of 3 months to assess the acceptability of the
initial sites. CDM had to reject 20 out of 27 building sites because the Pakistan
Government did not own the land and therefore was in no position to make the land
available to the mission. As a result, the mission had to obtain additional sites from
ERRA and restart the process, which further delayed construction.

Building design challenges encountered during the design phase also caused delays.
CDM was forced to remove one design subcontractor—MM Pakistan—from design work
for performance problems, and design requirements received from ERRA required
modification and approval. CDM issued a task order to MM Pakistan in January 2007 to
provide a design concept for three schools, including a girls’ high school. After the
mission and CDM reviewed the initial design concepts, both had concerns over the
design. The subcontractor was tasked with redesigning the building to address electrical
and lighting issues; however, the subcontractor’s redesign did not adequately address
CDM’s concerns, which delayed the final design phase for the school. Another
subcontractor prepared the final design for the girls’ high school, which CDM and the
mission approved in August 2007.

CDM was delayed in constructing four high schools because the mission had to obtain
approvals for deviations from ERRA design requirements. In preparing the design
concepts for these high schools, the mission obtained ERRA requirements for the
number and size of classrooms, science labs, and meeting halls. The first design
concept was completed by mid-November 2007. However, the original design based on
ERRA requirements created a high school so large that it was cost prohibitive. The
mission and CDM modified the design to reduce the square footage, a design which
ERRA ultimately approved. However, CDM was not authorized to proceed with the
design concept and final design of the four schools until February 2008.




                                                                                       6
    Photograph of a girls’ school under construction in Bagh district. (Photo by Office of Inspector General, 

    June 2008.)

Unanticipated work was another factor that delayed construction. CDM subcontracted
two schools to Associates in Development in June 2007. During September 2007,
Associates in Development had to undertake additional unplanned work to prepare the
construction sites, which delayed the progress for the two schools.

This same subcontractor did not perform adequately, further delaying progress. CDM
noted that the subcontractor had not put together a quality construction management
team at the sites and the work at the sites displayed poor planning. As a result, CDM
requested Associates in Development to prepare a recovery schedule.1 Associates in
Development also experienced problems with its own subcontractor, which it ultimately
terminated. Construction is still behind schedule for both schools, but CDM is confident
that Associates in Development will be able to complete the schools.

Material price escalation further delayed construction. Subcontractors refused to sign
negotiated subcontracts because significant price increases occurred after negotiations
were completed. The price of raw materials, particularly steel, has significantly
increased since December 2007. Subcontractors informed CDM that they would be
unable to fulfill their commitment under their existing fixed-price subcontracts for that
reason. To resolve this issue, the mission decided to create a separate task order to
purchase steel and other identified escalating commodities, in volume, at a set price.
Subcontractors would be allowed to purchase steel under this task order. Although the
task order is awaiting final contracting officer approval, the contracting officer approved
an initial order to purchase steel.

Collectively, these issues contributed to the delays in the construction startup of the
schools and basic health units. Although some issues, such as mission staffing, are
being addressed, other issues beyond the mission’s control, such as the suitability of
land provided by ERRA, may continue to affect the progress of the program. As of the


1
  A recovery schedule is required to document how the subcontractors will catch up on the
construction schedule after falling behind.


                                                                                                                  7
completion of audit fieldwork, only two schools were behind schedule, and one basic
health unit was ahead of schedule.

The delay in the construction of the schools and basic health units affects the
communities in several ways. First, these buildings were intended to be safe havens in
future earthquakes. If another earthquake occurs, the communities will not have safe
havens available to use. Second, many people left the earthquake reconstruction zones
because of a lack of medical services and schools. The longer it takes to complete
these structures, the longer it will take for people to return to their communities.

Since the reasons for the delay have either been resolved or are beyond the mission’s
control, this audit is not making any recommendations.

Livelihoods Activities
Experiencing Delays

 Summary: Contrary to the mission’s agreement with Citizens Network for Foreign
 Affairs (CNFA) to deliver and complete most of the livelihoods activities within the first
 12 months of the program and distribute microenterprise grants within the first 18
 months, the implementer did not meet all of its delivery requirements. The program
 delays were attributed to the termination of a subagreement for lack of performance,
 the mission’s delay in providing the first quarter fiscal year (FY) 2008 letter of credit
 advance, and lack of inventories within Pakistan to fulfill beneficiary grant purchases.
 As a result, deliveries of 551 large animal packages and 358 grants to beneficiaries
 were delayed.

USAID/Pakistan awarded a cooperative agreement to CNFA in July 2006 to implement
livelihoods activities, such as expanding and restoring incomes from animal husbandry,
and reestablishing and expanding income from agricultural crops. According to CNFA’s
July 2006 3-year plan, most of the livelihoods activities—such as distribution of livestock,
seeds, and tools—were to be completed within the first 12 months of the program.
CNFA was to complete the distribution of microenterprise grants within the first 18
months of the program.

CNFA has not met all of its delivery requirements. For example, although CNFA was
able to distribute nearly 8,945 planned seed packages (100 percent) to recipients, it was
able to deliver only 432 of 1,699 planned large livestock packages (25 percent) within
the first year of the program.

The program delays are attributed to three primary causes: (1) CNFA’s termination of a
subagreement for lack of performance, (2) the mission’s delay in providing the first
quarter FY 2008 letter of credit advance, and (3) lack of inventories within Pakistan to
fulfill beneficiary grant purchases.

On September 28, 2006, CNFA terminated its subagreement with American Refuge
Committee (ARC) because ARC did not perform under the terms of the subagreement.
ARC did not begin setting up operations in Bagh district, which should have included
hiring local staff and identifying office space. To compound the matter, ARC did not
provide an implementation plan as requested by CNFA. As a result, CNFA terminated


                                                                                          8
the subagreement with ARC and requested its other subgrantee to implement ARC’s
portion of the livelihoods activities in Bagh district, which delayed the start of these
activities until January 2007.

The mission contributed to the delay by not providing CNFA with incremental funding at
the start of FY 2008 in a timely manner. Despite CNFA’s June 2007 request for
incremental funding, the mission did not make the funds available until November 2007.
The mission’s delay was mainly attributed to mission staff not having a clear
understanding of the technical and contracting roles and responsibilities for processing
funding requests. For example, mission staff were not clear on who was responsible for
preparing the funding documents, so this process was delayed. Further, the mission’s
temporary contracting personnel were not familiar with the routing procedures for letter
of credit advances and as a result forwarded the request to the regional payment office
in Manila, Philippines, instead of to USAID/Washington, which processes these
requests. The mission had to wait for FY 2007 funds from USAID/Washington to meet
CNFA’s request, which further exacerbated the funding delay. USAID/Washington made
funds available to the mission at the end of September 2007, 3 months after CNFA’s
initial request.




 Photograph of poultry chicks purchased through a beneficiary grant in Bagh district. (Photo by Office of
 Inspector General, June 2008.)


Finally, CNFA commented that a lack of inventory for items requested under the
beneficiary grants was delaying the delivery of these items. For example, several
grantees requested tractors; however, in Pakistan the business practice is not to
maintain an inventory of tractors but rather to build the tractor once the orders are paid.
As a result, even if a grant is processed timely, there could be a delay in delivering the
tractor to the recipient.

As a result of these multiple delays, the intended beneficiaries under the livelihoods
activities were affected.      For example, because CNFA had to terminate its
subagreement, the goal of distributing 551 large animal packages along with feed and
training in Bagh district by the end of the first year was not met. According to the



                                                                                                            9
cognizant technical officer, the livestock distributions were not completed until the end of
April 2008.

The funding delay affected CNFA’s ability to disburse grant money, secure
procurements, and commit to training. According to CNFA, 358 grants to beneficiaries
were delayed—11 bakery grants, 41 farm mechanization grants, and 306 buffalo grants.
Though these grants were approved between July and September 2007, the funding
delay resulted in beneficiaries not receiving their benefits until January 2008. To
address the processing of incremental funding requests that led to delays making funds
available to the implementer, the audit makes the following recommendation.

   Recommendation No. 1: We recommend that USAID/Pakistan’s contracting
   office identify and document critical contracting processes, and provide training
   to mission personnel responsible for these processes.

Contractor Performance Review Was
Not Completed
Federal Acquisition Regulation 36.201 requires the mission to evaluate contractor
performance and prepare a performance report for each construction contract of
$550,000 or more. These performance reports should be prepared at the time of final
acceptance or at other times in accordance with Agency procedures. USAID Acquisition
Regulation 742.15 requires the contracting officer to report on contractor performance at
least annually. The mission has not completed an annual contractor performance
evaluation of CDM as required. The mission should have completed at least one
performance review by October 2007, 1 year after the signing of the contract.

According to the contracting officer, contractor performance reviews were not
consistently performed on all contractors, including CDM, because of a lack of staff. He
stated that priority was given to program implementation and processing of task orders
and contracts.

Regular, comprehensive, and conscientious performance evaluations will provide the
mission with information to make better acquisition decisions and will be a significant
incentive to the contractors to provide USAID with superior products and services.
Further, the U.S. Government Accountability Office has ruled that failure to properly
document contractor performance information and make the information available for
use in source selections for the same or similar items is a sufficient basis to sustain a
protest of a contract award in a subsequent source selection.

   Recommendation No. 2: We recommend that USAID/Pakistan perform a
   contractor evaluation of Camp Dresser and Mckee International Inc., in
   accordance with Agency procedures.




                                                                                         10
Performance Management Plans
Were Not Approved
The cognizant technical officer designation letter states that the officer is responsible for
approving performance management plans in accordance with contract terms.
Furthermore, the cooperative agreement with CNFA states that the mission is to approve
the performance management plan.             Finally, Mission Order 203.1 states that
strategic-level performance management plans are to be supported by activity-level
implementing partner performance management plans. Contractors and grantees are
responsible for developing activity-level performance management plans. The cognizant
technical officer should ensure that these documents are presented in a format that is
compatible with USAID/Pakistan's performance measurement framework.

Although indicators and targets were developed and agreed-upon plans were in place
between the mission and the award recipients (CDM and CNFA) during the first year of
the program, the mission did not formally approve these plans. Furthermore, the
mission had not approved the revised performance management plans for the second
year.

The mission did not approve either implementer’s plans because the cognizant technical
officers believed that the approval of the plans was the responsibility of the mission’s
program office. The confusion was compounded by the fact that the mission’s internal
guidance does not specifically identify who is responsible for approval.

Performance management is the systematic process of monitoring the results of
activities; collecting and analyzing performance information to track progress toward
planned results; using performance information to influence program decision making
and resource allocation; and communicating results achieved, or not attained, to
advance organizational learning and tell the Agency’s story.             The performance
management plan is a tool used by an operating unit to plan and manage the process of
assessing and reporting progress toward achieving a strategic objective. Without a
formally approved performance management plan between the mission and its
implementing partners and contractors, there is an increased risk that implementing
partners and contractors could stray from activities that support the strategic objectives.

   Recommendation No. 3: We recommend that USAID/Pakistan modify Mission
   Order 203.1 to specify that cognizant technical officers are responsible for
   approving implementing partner and contractor performance management plans.




                                                                                          11
Data Quality Assessment
Needs to be Completed
Automated Directives System 203.3.5.2 requires that data reported to
USAID/Washington for Government Performance and Results Act reporting purposes or
for reporting externally on Agency performance must have had a data quality
assessment at some time within the 3 years before submission. However, the mission
reported results for the FY 2007 operating plan indicators without a completed data
quality assessment.

Although the mission contracted with Management Systems International (MSI) to
perform a comprehensive data quality assessment for all of the mission’s strategic
objectives, the mission considered this assessment incomplete, especially as it related
to the reconstruction performance indicators. According to the mission, MSI did not
directly address reported results under the earthquake reconstruction activities. Further,
MSI’s data quality assessment of reconstruction activities included incomplete data
quality assessment sheets and contained comments such as “data reliability will be an
issue” without any supporting explanations. Finally, MSI’s data quality assessment
reported that progress reports were not available for the earthquake reconstruction
activities during the period of the review (July 22 through August 12, 2007), even though
CDM and CNFA submitted progress reports starting in January 2007.

The cognizant technical officers stated that they did not perform data quality
assessments because they assumed that their activities were to be covered by the
mission-wide assessment conducted by MSI. By the time the mission realized that
reconstruction activities were not adequately covered, it was too late to perform an
additional assessment. The mission has identified this as a problem and intends to
perform another data quality assessment covering earthquake reconstruction activities.

The purpose of a data quality assessment is to ensure that the operating unit and
strategic objective team are aware of the strengths and weaknesses of the data as
determined by applying the five data quality standards—validity, integrity, precision,
reliability, and timeliness—and are aware of the extent to which data integrity can be
trusted to influence management decisions.           Without an adequate data quality
assessment, management may be basing decisions on imprecise or unreliable
information. This, in turn, could result in a misallocation of resources. Therefore, this
audit makes the following recommendation.

   Recommendation No. 4: We recommend that USAID/Pakistan perform a data
   quality assessment for the mission’s earthquake reconstruction activities by
   March 31, 2009.




                                                                                       12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Pakistan agreed with the findings and recommendations contained in the draft
report. Furthermore, minor changes requested by the Mission were made to the report.
The mission plans to implement all of the recommendations in the report.

For recommendation number one, the mission’s Office of Acquisition and Assistance
(OAA) along with the Controller’s Office will design and implement procedures that will
ensure that funding information is routed to the correct disbursing office. Along with the
procedures, training will be provided to the staff and also to the technical offices to clarify
roles and responsibilities. The training along with the new procedures is expected to be
implemented by June 30, 2009.

In regards to recommendation number two, the mission will perform a contractor
evaluation of Camp Dresser and Mckee International Inc. by March 31, 2009.

For recommendation number three, the mission will modify Mission Order 203.1 by
March 31, 2009 to specify that cognizant technical officers are responsible for approving
implementing partner and contractor performance management plans.

Finally for recommendation number four, the mission will perform a data quality
assessment for its earthquake reconstruction activities by March 31, 2009. The mission
commented that an extension was required because the security situation in Pakistan
requires that it now use a local contractor and complete a statement of work instead of
using Washington D.C. staff to perform the data quality assessment. We have changed
the recommendation to reflect the revised completion date.

Based on the mission’s comments we consider that management decisions have been
reached on all of the recommendations. Determination of final action will be made by
the Audit Performance and Compliance Division upon completion of the planned
corrective action.




                                                                                            13
                                                                              APPENDIX I




SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila (RIG/Manila) conducted this performance audit
in accordance with generally accepted Government auditing standards.            Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. The objective of this audit
was to determine whether USAID/Pakistan’s earthquake reconstruction activities
achieved intended results, and what the impact has been.

This audit focused on two activities under USAID/Pakistan’s earthquake reconstruction
program: (1) the construction of schools and health clinics implemented by Camp
Dresser and Mckee International Inc. (CDM) and (2) the livelihoods activities
implemented by Citizens Network for Foreign Affairs (CNFA). In October 2006,
USAID/Pakistan awarded a $120 million contract to CDM to implement the construction
activities of the program. As of May 31, 2008, USAID/Pakistan had obligated $31 million
and disbursed $8 million for the construction activities. Further, in July 2006, the mission
awarded a cooperative agreement of $28 million to CNFA for livelihoods activities. As of
May 31, 2008, USAID/Pakistan had obligated $19 million and disbursed $14 million for
the livelihoods activities under the CNFA agreement. Total costs obligated and
disbursed under the program in its entirety as of May 2008 were $80 million and $43
million, respectively.

The audit was performed in the Islamic Republic of Pakistan (Pakistan) from June 4
through 25, 2008, and covered the program’s activities implemented by CDM and CNFA
from inception to April 2008. In Islamabad, RIG/Manila conducted fieldwork at
USAID/Pakistan, CDM, and CNFA offices. We also visited selected program project
sites in Northwest Frontier Province and Azad Jammu and Kashmir Province.

We reviewed and analyzed the activities supporting 10 performance indicators—5
indicators for construction activities and 5 for livelihoods activities—that USAID/Pakistan
established to measure whether the program was achieving planned results. CDM and
CNFA were required to report on these indicators in periodic progress reports.

As part of the audit, we assessed the significant internal controls used by
USAID/Pakistan to monitor program activities. The assessment included controls
related to whether the mission (1) conducted and documented site visits to evaluate
progress and monitor quality, (2) required and approved an implementation plan,
(3) reviewed progress reports submitted by CDM and CNFA, and (4) compared reported
progress to planned progress and the mission’s own evaluations of progress. We also
reviewed the mission’s Federal Managers’ Financial Integrity Act report for fiscal year
2007, and prior audit reports, for any issues related to the audit objective.




                                                                                         14
                                                                              APPENDIX I





Methodology
To answer the audit objective, we interviewed officials from USAID/Pakistan, CDM, and
CNFA. We also reviewed and analyzed relevant documents from the mission, the
implementing partners, and the contractor. This documentation included performance
management plans, the contract between the mission and CDM, and the cooperative
agreement between the mission and CNFA. Furthermore, we reviewed contractor and
grantee monitoring reports, annual work plans, and financial records.

To test the validity of the data used to answer the audit objective, including data reported
by CDM and CNFA in periodic progress reports, we performed the following:

   •	 Verified a judgmental sample of performance data against supporting records at
      CDM and CNFA

   •	 Verified a judgmental sample of CNFA reported results to subgrantee
      documentation

   •	 Reviewed the internal application and security controls over the performance
      monitoring system used by CDM and CNFA for recording and reporting results

For each selected performance indicator, we established the following materiality
threshold criteria to measure progress made in the program:

   • 	 The planned result would be achieved if the target number was met.

   • 	 The planned result would be partly achieved if progress was made toward
       meeting the target number.

   • 	 The planned result would not be achieved if no progress was made toward
       meeting the target number.




                                                                                         15
                                                                                APPENDIX II




MANAGEMENT COMMENTS


MEMORANDUM 


Date:                November 18, 2008

To:                  Catherine M. Trujillo
                     RIG/Manila

From:                Anne H. Aarnes /s/
                     Mission Director

Subject:             Management Comments
                     Audit of USAID/Pakistan’s Earthquake Reconstruction Activities (Audit Report
                     No. 5-391-09-00X-P)

Reference:           Catherine M. Trujillo’s memo dated October 9, 2008

In response to the referenced memorandum on the above subject, please find below the
management comments on the four recommendations:

Recommendation No. 1: We recommend that USAID/Pakistan’s contracting
office identify and document critical contracting processes, and provide training
to mission personnel responsible for these processes.

Management Comments: The Mission agrees with this recommendation. In order to
address the concerns, USAID Pakistan’s Office of Acquisition and Assistance (OAA)
along with the Controller’s Office is in the process of designing and implementing steps
and procedures that will ensure that funding information is routed to the correct
disbursing office. Along with the procedures, training will be provided to the OAA staff
and also to the technical offices to clarify roles and responsibilities. The training along
with the new procedures is expected to be implemented by June 30, 2009.

Recommendation No 2: We recommend that USAID/Pakistan perform a contractor
evaluation of Camp Dresser and Mckee International Inc. in accordance with
agency procedures.

 Management Comments: The Mission Management agrees with this recommendation.
The Mission will perform a contractor evaluation of Camp Dresser and Mckee
International Inc. It is expected that the evaluation will be completed by March 31, 2009.

U.S. Agency for International Development   Tel: [+92] 51 208 0000
Embassy of United States of America,        Fax: [+92] 51 287 0310
Diplomatic Enclave, Ramna 5, Islamabad      www.usaid.gov/pk



                                                                                           16

                                                                              APPENDIX II

                  Page 2, Report No. 5-391-09-00X-P 

                        November 18, 2008 


Recommendation No 3: We recommend that USAID/Pakistan modify Mission
Order 203.1 to specify that cognizant technical officers are responsible for
approving implementing partner and contractor performance management plans.

Management Comments: The Mission Management agrees with this recommendation.
The Mission will modify Mission Order 203.1 to specify that cognizant technical officers
are responsible for approving implementing partner and contractor performance
management plans. It is expected that the modification will be completed by March 31,
2009.


Recommendation No 4: We recommend that USAID/Pakistan perform a data
quality assessment for the mission’s earthquake reconstruction activities by
December 31, 2008.

Management Comments: The Mission Management agrees with this recommendation.
The Mission will perform a data quality assessment (DQA) for the Mission’s earthquake
reconstruction activities. It is expected that the assessment will be completed by March
31, 2009. RIG is requested to change the date of completion as December 31, 2008 is
not feasible.


Originally, it was planned to use US-based consultants and colleagues from EGAT for
the mid-program evaluations as well as the DQAs. This work was supposed be done in
the October-November timeframe. Given the security situation and constraints,
USAID/Pakistan is postponing the mid-program evaluations until the second quarter of
the FY. Therefore, the DQA is being rescheduled for a December-January timeframe.
The justification for the delay is the security situation. The SOW for local consultants to
undertake the DQAs for reconstruction is being finalized. It is expected that the
assessment will be completed by March 31, 2009.


Mission requests that RIG consider changing the opinion in the first sentence of
paragraph three of page 1 and throughout the body of the audit report where it states
that, “USAID/Pakistan earthquake reconstruction that involved construction and
livelihoods activities achieved some, but not all of its intended results.” Of the 10
performance indicators selected, 7 achieved their intended results; 2 partially achieved
their intended results; whereas, 1 did not achieve the planned result for the period based
on the standard RIG used for measuring performance. Therefore, Mission believes that it
mostly achieved its intended results.

In addition, the Mission requests deletion of, “did not make progress on one indicator”
and the replacement of this phrase with “suspended progress on one indicator”. The
reconstruction team suspended design work on the Tehsil Hospital in Bagh District,
pending further clarification from the Government of Pakistan (GOP) that the facility
would be properly staffed and maintained. The suspension went into effect following a
site visit to a new $10 million Tehsil Hospital funded by the Kuwaiti Fund. Six months
after construction, this Kuwaiti-funded facility was neither staffed adequately nor
maintained under acceptable working standards. After subsequent USAID discussions


                                                                                          17
                     Page 3, Report No. 5-391-09-00X-P 

                           November 18, 2008 

                                                                            APPENDIX II


with the GOP district health officer and other government officials, USAID directed that
work resume on the design of a smaller, more sustainable facility.




                                                                                       18
                                                                                        APPENDIX III


                     Table A-1: Program Achievements as of April 30, 2008


                      Earthquake Reconstruction Activities

                      Agreed Upon Performance Indicators
                                                                        Results
                                                         FY 2008
       Program Performance Indicators                    Targets
                                                                        through          Target Met
                                                                       April 2008
                    Livelihoods

Percent of disaster affected house-holds provided with
basic inputs for survival, recovery or restoration of         5%          30.20%            Yes
productive capacity.

Percent change in rural income of targeted population.       10%             40%            Yes

Number of rural households benefiting directly from
U.S. Government Interventions.
                                                           24,000          26,232           Yes

Number of individuals who have received U.S.
Government supported short term agricultural sector        10,750          20,836           Yes
productivity training.
Number of jobs created from Improving Livelihoods &
Enterprise Development (ILED) interventions.
                                                            6,750          87,247           Yes

                    Construction

Percent of communities rating above minimum
threshold on community involvement.
                                                            100%            100%            Yes

Percent of total constructed square footage
handicapped accessible.
                                                             75%             98%            Yes

Number of Tehsil Hospital under construction.                      1                0       No

                                                                                         Progress
Number of Schools buildings under construction.                26              12       being made.
                                                                                          Progress
Number of Basic Health Units under construction.               17              15        being made




                                                                                                  19
U.S. Agency for International Development 

        Office of Inspector General 

       1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig



                                              20
